OIG Investigative Reports, Mose Jefferson Indicted By Federal Grand Jury for Bribery, Obstruction of Justice and Money Laundering
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Mose Jefferson Indicted by Federal Grand Jury for Bribery, Obstruction of Justice and Money Laundering
April 2, 2008
FOR IMMEDIATE RELEASE
MOSE JEFFERSON, age 65, a resident of New Orleans, was charged by a Federal Grand Jury with one count of conspiracy to commit bribery in connection with a program receiving federal funds, three counts of bribery in connection with a program receiving federal funds, one count of conspiracy to commit money laundering and two counts of obstruction of justice, announced U. S. Attorney Jim Letten today, along with the Federal Bureau of Investigation, Special Agent in Charge James Bernazzani, IRS Criminal Investigations Division, Special Agent in Charge Michael J. De Palma, and Department of Education, Inspector General John P. Higgins, Jr., and Special Agent in Charge Tom Utz.
According to the indictment, MOSE JEFFERSON paid former Orleans Parish School Board member, Ellenese Brooks-Simms a series of bribes totaling $140,000 as a reward for Brooks-Simms' support and approval of two Orleans Parish School Board contracts involving the lease of a computer-based educational software system called "I can learn". When the contracts were approved in June, 2003 and November, 2004, MOSE JEFFERSON was an exclusive sales agent for the vendor who paid JEFFERSON approximately $913,168.21 in sales commissions for his role in securing the 2003 and 2004 contracts with the School Board.
In December, 2003 and January, 2004, after receiving his sales commissions from the 2003 contract, the indictment alleges that JEFFERSON deposited those monies in his B.E.P. (Business, Education & Politics) corporate bank account. From there, JEFFERSON shifted the payoffs to a Southwind Consulting (Southwind) corporate bank account he controlled in an attempt to conceal the flow of illegal payments to Ellenese Brooks-Simms. After depositing the monies in his Southwind account, the indictment alleges that MOSE JEFFERSON then gave two $50,000 Southwind checks to Brooks-Simms. After Brooks-Simms received the payoffs from JEFFERSON, she then deposited the monies in a newly opened Liberty Bank account in her daughter's name.
It is further alleged that in January, 2005, after he received a $272,593.55 commission for the 2004 contract, MOSE JEFFERSON gave Brooks-Simms another $40,000 payoff check. The check was made payable to a third party who had no knowledge of the transaction and was drawn on MOSE JEFFERSON's B.E.P. bank account. After Brooks-Simms received this final check, she endorsed it with the name of the third party and then solicited, local businessman, Burnell Moliere, to cash it. Burnell Moliere, not only cashed the third party check, but structured the release of the cash in separate installments to avoid detection and to conceal the true nature of the transaction.
Brooks-Simms, her daughter Stacy Simms, and Moliere have been convicted of federal felonies via guilty pleas in U. S. District Court.
The indictment also alleges that after MOSE JEFFERSON discovered his activities were under investigation, he approached Brooks-Simms on several occasions and encouraged her to use several fabricated stories he had concocted to obstruct and impede the federal investigation.
If convicted on Count 1 (the conspiracy to commit bribery in connection with a program receiving federal funds), MOSE JEFFERSON faces a maximum term of imprisonment of five (5) years, a fine of up to $250,000, and three (3) years of supervised release following any term of imprisonment. Count 2 - 4 (the three substantive bribery counts) each carry a maximum term of imprisonment of ten (10) years, a fine of $250,000, and up to three (3) years of supervised release following any term of imprisonment. Count 5 (the money laundering conspiracy) carries a maximum term of imprisonment of up to ten (10) years, a fine of up to $250,000, and up to five (5) years of supervised release following any term of imprisonment. Counts 6 -7 (obstruction of justice) each carries a maximum term of imprisonment of ten (10) years, a fine of up to $250,000, followed by up to five (5) years of supervised release following any term of imprisonment.
Speaking of today's developments, U. S. Attorney Jim Letten stated:
"Once again, we in the U. S. Department of Justice and our partners continue to demonstrate our commitment to strike at the heart of the corruption which has plagued and sometimes severely impaired our democratic and educational institutions. Stated simply, we will not tolerate self-dealing among those who are entrusted with providing products, services, or support to our public institutions. Today’s indictment, as with the previous charges brought forward against other individuals in our ongoing corruption efforts, is continuing evidence of that very commitment which will continue. We will stay the course we have set in creating and maintaining a very hostile environment for any public officials or individuals who would breach the public trust and prey upon our citizens and school children for illegal profit."
FBI Special Agent in Charge Bernazzani added:
"There has been a select school of thought in the public service arena of New Orleans that a corrupt public official, or those affiliated with such, think everyone steals. I say not. Corruption, like disease, is something to be done away with by consent of the people, the law abiding citizens. The FBI and the USA's office are the tip of the spear, but the consent and intolerance of the law abiding citizen will rid us of this disease. Momentum is on our side. We have corruption on the run. If you honestly believe that public service is about serving the people and not stealing from the people, then the you, the law abiding citizen, are the FBI, and the men and women of the FBI are you. Together we can lick any problem."
IRS CID Acting Special Agent in Charge, Paul DuPlessis stated:
"IRS actions are intended to insure that the public is represented fairly by our elected officials and to deter others in the political arena from engaging in inappropriate business activities."
U. S. Attorney Letten reiterated that the indictment is merely a charge and that the guilt of the defendant must be proven beyond a reasonable doubt.
This case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, Criminal Investigation Division and the Department of Education, Office of Inspector General. The prosecution is being handled by Senior Litigation Counsel Salvador Perricone and Assistant U. S. Attorneys Richard R. Pickens, II and Michael M. Simpson.
Download Indictment  (PDF)
Top
Printable view
Share this page
Last Modified: 06/05/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov